<html>
<title> - THE TRANSPORTATION SECURITY ADMINISTRATION'S NEW COMMERCIAL AVIATION PASSENGER SCREENING PROCEDURES</title>
<body><pre>[Senate Hearing 109-416]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-416
 
                      THE TRANSPORTATION SECURITY
                ADMINISTRATION'S NEW COMMERCIAL AVIATION
                     PASSENGER SCREENING PROCEDURES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
27-469                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       5SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 12, 2005................................     1
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     1

                               Witnesses

Friend, Patricia, International President, Association of Flight 
  Attendants-CWA, AFL-CIO........................................    22
    Prepared statement...........................................    24
Hawley, Hon. Edmund ``Kip'', Assistant Secretary, Transportation 
  Security Administration........................................     2
    Prepared statement...........................................     5
May, James C., President and Chief Executive Officer, Air 
  Transport Association of America, Inc..........................    15
    Prepared statement...........................................    17

                                Appendix

Lemack, Carie, Daughter of Judy Larocque, Co-Founder, Families of 
  September 11, prepared statement...............................    31


                      THE TRANSPORTATION SECURITY
                    ADMINISTRATION'S NEW COMMERCIAL
                AVIATION PASSENGER SCREENING PROCEDURES

                              ----------                              


                       MONDAY, DECEMBER 12, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good afternoon. First, we welcome the 
witnesses who will appear before the Committee today, and I 
want to thank you for your willingness to appear today.
    Before proceeding further, I want to commend Assistant 
Secretary Hawley and TSA's Federal Air Marshal Service for 
their response to last week's incident at the Miami 
International Airport. The air marshals reacted exactly as they 
were trained and deployed to do, and the incident, while truly 
tragic, sends a strong message to all that such threatening 
conduct will not be tolerated on United States aircraft.
    The purpose of today's hearing is to request that Mr. 
Hawley explain to the Committee their reasons for instituting 
new commercial aviation security procedures, including changes 
to TSA's list of items prohibited onboard commercial aircraft.
    On December 2, Mr. Hawley announced that certain items, 
currently prohibited from being carried onboard commercial 
aircraft, will be permitted, effective December 22. Mr. Hawley 
indicated that other security measures implemented since 
September 11, such as hardened cockpit doors, render the 
prohibited-items list overly inclusive. In TSA's view, 
screeners spend significant time searching for items that TSA 
argues no longer pose a serious threat, to the detriment of the 
time that must be devoted to screening for other items that are 
more dangerous.
    Now, some Senators and staff have been briefed by TSA since 
the agency's announcement. This hearing is for the purpose of 
making a record for the full Committee of the reasoning for 
TSA's decision.
    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I'm glad to join you in 
welcoming Secretary Hawley. I have a statement, and I ask that 
be made part of the record.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    The holiday travel season is upon us and with it comes the prospect 
of long airport lines and tiring journeys for many Americans. The need 
for security further complicates our journeys, but in today's world, it 
is a necessity.
    The TSA recently announced changes to the screening process, 
eliminating the need to search for items that have forced the screener 
workforce to devote countless hours pulling out small items from 
people's bags.
    These changes are a tangible example of the dilemma we will 
continue to face in transportation security. As passengers, we all want 
the TSA to speed up the security process and make it more efficient 
without jeopardizing the security of the system. This trade-off between 
efficiency and security is at the core of the TSA's new ``risk-based 
strategy,'' and it is exactly what we need to examine today.
    Interestingly, when we created the TSA, the Congress left it within 
the Department of Transportation so that the tension between security 
and efficiency could be resolved by the agency with expertise in 
transportation efficiency and safety. Ultimately, Congress later 
elected to create the Department of Homeland Security, and it is clear 
to all that the agency is having a difficult time grappling with this 
very question in all fields of transportation security.
    The Congress recognized the potential implications of this tension, 
and chose to maintain jurisdiction over aviation security and 
efficiency within the jurisdiction of one authorizing committee--the 
Committee on Commerce, Science, and Transportation.
    By changing the prohibited-items list, the TSA contends that it is 
eliminating the items it considers to be most burdensome to the 
screening process. The items are ``less-than-lethal,'' in the TSA's 
view, and the agency suggests that screeners' time is better spent 
searching for explosives. While this may be the case, the trade-off is 
a cabin that may contain a variety of potentially dangerous items.
    Fortified cockpit doors have done much to eliminate the threat of a 
plane being used as a weapon of mass destruction, but we must continue 
to do all that we can to ensure that the passengers and crew are safe 
in the cabin as well.
    I am also concerned that funding pressures are making the 
``efficiency versus security'' dilemma more difficult. Obviously, we 
expect our agencies to seek cost-effective solutions wherever possible, 
but I am curious to know if the TSA would still seek these kinds of 
changes if their budget was not as tight.
    This peak travel season provides ample incentive for the TSA to 
attempt to streamline security procedures, and it has, no doubt, played 
a role in the timing. Perhaps, however, these notable changes should be 
instituted after the first of the year, when the peak traffic levels 
have subsided, and security personnel are able to adapt under less 
demanding circumstances.
    Nonetheless, today's hearing is well-timed. This is neither the 
first time, nor the last, that we will be discussing the balance 
between efficiency and security, so it is vitally important that we 
understand the TSA's perspective on these particular changes.

    The Chairman. Mr. Hawley, please proceed.

 STATEMENT OF HON. EDMUND ``KIP'' HAWLEY, ASSISTANT SECRETARY, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Hawley. Thank you.
    Good afternoon, Mr. Chairman, Co-Chairman Inouye, and 
Members of the Committee. I'm pleased to have the opportunity 
to discuss the TSA's strategies in aviation security and 
planned changes to implement them.
    Let me preface my remarks today by expressing my deepest 
sympathy to the family of Rigoberto Alpizar. As you know, Mr. 
Alpizar was shot by Federal Air Marshals last week in Miami. 
His death is regrettable to all of us.
    Our initial review of the facts indicates that TSA's 
Federal Air Marshals acted in a manner consistent with their 
training to protect the public. TSA, the Federal Air Marshal 
Service, and the marshals involved are working with, and 
cooperating fully with, the authorities as they complete their 
formal review. We will apply any lessons learned to future 
protocols and training.
    Mr. Chairman, on 9/11, terrorists used the threat of 
explosives and sharp instruments to commandeer commercial jets 
and use those jets as weapons of mass destruction. To battle 
that enemy and that threat, a list of objects that could be 
brought onto a plane and used by terrorists to take over a 
plane were immediately put on a prohibited-items list. Since 
then, with ATSA as its statutory foundation, TSA worked with 
the airlines, airports, shipping industry, flight crews, law 
enforcement, and passengers to take aviation security orders of 
magnitude beyond where it stood on 9/11.
    The reason is that we have many independent, interlocking 
layers of security that reinforce each other. Any one of them 
can be beaten, but, together, they are formidable. For 
instance, the subject of today's hearing is a very small piece 
of one of those layers. In order to evaluate the merits of our 
actions at the passenger checkpoint, it helps to see where they 
fit in the larger context. Here, then, are the layers in place 
today for protection of the cockpit and passenger cabin, 
specifically.
    One, U.S. Government agencies work with others around the 
globe to identify and disrupt terrorist activities at their 
source.
    Two, customs and border protection activities further 
identify potential terrorists and bar their entry into the 
United States.
    Three, Federal, State, and local law enforcement work 
together with the FBI in Joint Terrorism Task Forces across the 
United States to identify and disrupt terrorist activities 
within the U.S.
    Four, a no-fly system is used to prevent anyone known to an 
agency of the U.S. Government to be a threat to commit a 
terrorist act from flying into or within the United States.
    Five, airline flight crews and airport employees who have 
access to an aircraft are subject to an even stricter vetting 
standard than the no-fly analysis.
    These first five security layers mean that anyone known to 
U.S. intelligence or law enforcement agencies as a terrorist or 
a close terrorist associate never gets close to an airplane.
    But there is more:
    Six, an additional risk-based computer-assisted 
prescreening of passengers is conducted before a boarding pass 
can be issued.
    Seven, hundreds of Canine teams and local law enforcement 
officers are working at airports around the country.
    Eight, surveillance activities occur in and around the 
airport environment on a daily basis.
    That's what happens before a passenger even shows up at a 
TSA checkpoint.
    At the checkpoint:
    Nine, a professional, well-trained, experienced team of 
transportation security officers, assisted by multiple 
technologies, screens passengers and their carry-on bags for 
weapons and explosives.
    Then, on the aircraft:
    Ten, thousands of Federal Air Marshals fly undercover on a 
very significant number of flights, both domestic and 
international.
    Eleven, thousands of pilots who undergo special training 
and become Federal flight-deck officers are authorized and 
ready to protect the cockpit with firearms.
    Twelve, other local, State, and Federal law enforcement 
officials travel armed as part of their normal duties.
    Thirteen, hardened cockpit doors prevent unauthorized 
access to the flight deck.
    Fourteen, and sitting quietly on every airplane are 
passengers who remember the courage and commitment of the men 
and women on United Flight 93. The way Americans think about 
hijackings changed on that flight. For decades, the accepted 
hijacking response was to avoid confrontation. That doctrine 
was in effect the early morning of September 11, 2001. By 11 
o'clock a.m. on that day, the paradigm changed, and is gone 
forever. Americans will not sit still when threatened.
    There is a changed battlefield, Mr. Chairman. We know it, 
and terrorists know it. After 4 years, we've built a 
multilayered system that makes another 9/11-style attack a 
losing bet for terrorists. It's time to take down some of the 
security scaffolding that we quickly put in place as a stopgap 
measure. The more permanent structure is in place, and it is 
better.
    This discussion today is not about the number of resources, 
it is about the smart use of those resources. In today's world, 
with today's security system, the small objects we're talking 
about aren't going to enable a major terrorist attack.
    I am sympathetic with the fears of some passengers and crew 
members who are worried about their personal safety. The fact 
is that scissors and tools can be used as weapons on aircraft, 
in shopping malls, and here in the Dirksen Senate Office 
Building, itself. It is also a fact that there are thousands of 
items that do not appear on our prohibited-items list that can 
also be used as a weapon by someone intent on causing injury: 
pens, pencils, belts, credit cards, soda cans, bare hands, and 
many more. Clearly, if someone is intent on causing personal 
injury, a prohibition on small scissors and tools will not stop 
them. It's not about scissors, it's about bombs.
    The changes we're making to the prohibited-items list are 
important, but they are just one highly visible piece of a much 
larger effort to refresh our security strategy.
    TSA initiated a reexamination of its activities last July, 
in conjunction with Secretary Chertoff's second-stage review, 
and his resulting direction. We systematically reviewed the 
full range of measures we currently employ to mitigate risk, as 
well as the additional measures now available to us, including 
new technologies and their deployment schedule.
    We examined regularly collected data concerning items 
confiscated at TSA checkpoints, as well as data generated by 
special studies that allowed us to focus more clearly on 
particular weaknesses. This decision was made based on data and 
metrics.
    Our analysis considered a variety of potential changes, 
including a range of changes to the prohibited-items list and 
screening procedures at TSA checkpoints, as well as the 
deployment of both old and new explosives detection technology 
and different types of employee training. The changes reflect 
the new and evolving threat environment, as well as what we've 
done to narrow our vulnerabilities.
    In addition to changing the prohibited-items list, TSA is 
implementing a number of changes specifically relating to 
explosives detection and screening. Our goal is to establish 
flexible protocols based on risk so that terrorists cannot use 
the predictability of our security measures to their advantage 
when planning an attack. We are piloting other activities as we 
move forward. Some will be visible, some will not be visible to 
passengers or to terrorists.
    All of these changes in our explosives detection 
capability, TSA screening protocols, and the prohibited-items 
list are important to maintaining the vitality of our security 
process. TSA must be able to adapt quickly to changes in 
terrorists' tactics, deploy our resources effectively based on 
risk, and use unpredictability as a means to disrupt terrorist 
plots.
    The flexibility to make changes quickly is vital to our 
mission. We need the ability to move away from measures that 
are no longer needed, and to move decisively when changes are 
required. Threat, vulnerability, and consequence, those are the 
three dimensions of terrorist risk, and they are our guide as 
to how we allocate our resources.
    Small scissors and tools, versus bombs. If you do the 
analysis, it is not even close. Sorting through thousands of 
bags a day, at 2 or 3 minutes apiece, to pull out small 
scissors and tools does not help security, it hurts it.
    TSA's changes to the checkpoint process--better training, 
more effective bag and passenger screening, and more and better 
use of technology--these are the steps that will improve 
security.
    Mr. Chairman, I do not lightly say that, based on all I 
know. I believe that we need to strengthen our efforts against 
explosives at the passenger checkpoint, including the changes 
to the prohibited-items list. We have done the risk-based 
analysis. Now we need to implement it, without delay.
    I'd be happy to answer any questions.
    [The prepared statement of Mr. Hawley follows:]

   Prepared Statement of Edmund ``Kip'' Hawley, Assistant Secretary, 
                 Transportation Security Administration

    Good afternoon, Mr. Chairman, Co-Chairman Inouye, and Members of 
the Committee. I am pleased to have this opportunity to testify before 
this Committee to discuss the Transportation Security Administration's 
(TSA) strategies in aviation security and planned changes to implement 
those strategies.
    Let me begin today by expressing my deepest sympathy to the family 
of Rigoberto Alpizar. As you know, Mr. Alpizar was shot and killed by 
Federal Air Marshals on the jet-way of an American Airlines plane in 
Miami. While his death is regrettable, our initial review of the facts 
indicates that the team of air marshals acted in a way that is 
consistent with the training they have received to protect other 
passengers, the flight crew, and the aircraft. This was an isolated 
incident, with no nexus to terrorism. As is routine for a law 
enforcement officer involved shooting, we are investigating the 
incident internally, and we will apply any lessons learned to future 
protocols and training.
    I also want to acknowledge the understandable concern expressed by 
many thoughtful and serious people who worry that changes in TSA's 
prohibited-items list may signal a weakening of aviation security. Let 
me assure you, this is not the case. We have had the benefit of the 
advice and input of many people in the past few months, and we have 
known that the changes would stir deep emotions. But I would not have 
pursued these changes if I did not believe that they are a critical 
element of an integrated plan to improve the security of the aviation 
system.
    In summary:

  <bullet> The security of the aviation system will be strengthened by 
        these changes. Shifting attention from low security risks to 
        address markedly higher security risks is a plus, not a minus, 
        to security. Keeping small tools and small scissors on the 
        prohibited-items list might make people feel better, but it 
        will not improve security or measurably reduce the risk that a 
        terrorist will gain control of an airplane.

  <bullet> These changes are motivated by security reasons, not 
        concerns about resources or line speed. While I believe that we 
        will see a more efficient system, that is a byproduct of these 
        changes. This effort is directed only at real security 
        weaknesses that we must address.

  <bullet> The changes announced are part of a complex mix of visible 
        and invisible components--some of which we can discuss in 
        public and some that we cannot. The prohibited items changes 
        are a public piece of the puzzle that fits in a larger context. 
        The total security picture would be weakened without it.

    This Committee has exerted strong leadership in shaping today's 
aviation security system, moving rapidly following 9/11 to shape the 
Aviation and Transportation Security Act (ATSA), and passing the Vision 
100 and Intelligence Reform and Terrorism Prevention Acts.
    Today we are orders of magnitude beyond where we stood on 9/11 in 
securing aviation travel. With the ATSA as its statutory foundation, 
TSA has worked with the airlines, airports, shipping industry, flight 
crews, law enforcement, and passengers to establish a robust aviation 
security system. That system now includes:

  <bullet> A superb, well-trained Transportation Security Officer 
        workforce that screens passengers, baggage, and cargo traveling 
        on passenger planes;

  <bullet> Federal Air Marshal Service law enforcement officers who fly 
        anonymously on commercial passenger planes to provide physical 
        security should an incident occur;

  <bullet> Thousands of pilots who voluntarily participate in the 
        Federal Flight Deck Officer program, which permits pilots who 
        are trained to support the security regime from the cockpit to 
        carry firearms;

  <bullet> Over 700 flight crew members, including flight attendants, 
        who have voluntarily taken TSA's Advanced Flight Crew Self-
        Defense course.

  <bullet> Other local, State, and Federal law enforcement officers who 
        travel armed as part of their normal duties;

  <bullet> Hardened cockpit doors to prevent unauthorized access to the 
        flight deck;

  <bullet> Enhanced explosives and threat detection technology deployed 
        in hundreds of airports; and

  <bullet> A cadre of approximately 360 canine explosives detection 
        teams screening baggage, cargo and, increasingly, carry-on 
        items.

    The public itself has added its own significant layer of security 
by its vigilance in looking for and reporting suspicious behavior, and 
the high likelihood that passengers will take action if an event occurs 
on an aircraft with or without an Air Marshal on board.
    TSA has recently concluded a strategic assessment of our aviation 
security activities, and we are in the process of making changes that 
align with and reflect the principles that Secretary Chertoff 
introduced in the Department of Homeland Security Second Stage Review. 
To that end--

  <bullet> Our work and our decisions are driven by risk;

  <bullet> Our strategies are intended to promote Americans' freedom, 
        privacy, prosperity, and mobility;

  <bullet> We strive to be effective stewards of public resources; and

  <bullet> We are building partnerships across every level of 
        government, and with the private sector, our international 
        counterparts, and with the American traveling public across all 
        modes of transportation.

    On December 2, 2005, I announced three changes in the way TSA 
operates in airports in conjunction with passengers. These changes 
reflect what we have learned from airlines, airports, law enforcement, 
and passengers, as well as our view of the current security risk 
environment. The changes include:

  <bullet> Improvements in explosives detection training and 
        technology;
  <bullet> Modifications to the prohibited-items list; and
  <bullet> Changes to TSA security screening protocols.

    The changes reflect not only a new and evolving threat environment, 
but also our determination to make smart decisions based on data and 
metrics, a practice that TSA will continue to employ.
    Many of the improvements in our explosives detection capability are 
already in place; the remaining changes will take effect in airports 
throughout the country on December 22, 2005. This will give TSA 
Security Officers and the public time to understand and prepare for the 
changes. We expect the net effect of these changes to be improved 
security, as we direct resources toward higher risk areas and make our 
security protocols less transparent to potential terrorists. We do not 
expect that implementing these changes will result in significantly 
shorter passenger wait times, nor do we expect to see significantly 
longer passenger wait times.

An Enhanced Focus on Explosives Detection
    While changes to the prohibited-items list have attracted a great 
deal of attention, they are not the most important component of our 
changing strategy. The most significant element is the fact that we 
have evaluated our risk environment throughout the transportation 
sector, and based on a broad analysis of threat, vulnerability and 
consequence, we are focusing more on higher threat areas, such as 
explosives.
    As I indicated earlier, since 9/11, TSA has implemented multiple 
layers of security to reduce the risk that terrorists could hijack and 
take control of an airplane. As terrorists adapt to the measures we 
have taken, we too, are adapting, and have put increased focus on the 
threats posed by improvised explosive devices (IEDs), a frequent weapon 
of choice for terrorists. To more effectively counter this threat, TSA 
continues to implement changes related to explosives detection and 
screening.
    First, we have significantly increased the number of canine 
explosives detection teams. Canine teams can be used to search 
aircraft, cargo, vehicles, terminals, warehouses, passengers, and 
baggage. They move easily throughout the airport system and can post at 
multiple points during time periods that vary by shift and by day. 
Today, approximately 360 canine teams work at airports across the 
Nation. We will continue to grow the canine program--it is highly 
effective, flexible, and economically reasonable, as we demonstrated 
during the Thanksgiving period when they were deployed in passenger 
areas.
    Second, we have recently completed enhanced explosives detection 
training for over 18,000 TSOs. This training includes both classroom 
and hands-on experiences, and focuses particularly on identifying X-ray 
images of IED component parts, not just a completely assembled bomb. 
Within days of completing training, TSA security officers in St. Louis 
found a hidden explosive detonation device in a carry-on bag. Our 
performance in this area will continue to improve, as the rest of our 
screening workforce receives enhanced explosive detection training over 
the next six months and refresher training is incorporated into our 
regular weekly training programs.
    Third, to reinforce this training, we have updated our database of 
threat images to include many more new IED images of all types. These 
images are randomly projected onto X-ray screens at checkpoints to help 
our security officers hone their detection skills and identify remedial 
training needs. Additionally, new standard operating procedures will 
encourage TSA Security Officers to work together more than ever before 
to find items that may pose a security threat.
    Finally, just as we have invested in our people to help reduce the 
risk that explosives will be taken aboard a plane, we are also 
investing in technology for this purpose. Already, 43 explosives trace 
portal machines have been installed at 20 airports, and we will 
complete installation of an additional 16 machines at 6 airports by 
mid-December. This new technology uses puffs of air to help detect the 
presence of explosives on individuals. Site surveys, which will 
encompass between 80 and 100 of the Nation's larger airports, are 
ongoing for placement of the remaining portals that TSA will be 
installing. By the end of 2006, about 350 trace portal machines will be 
in operation throughout the country.
    As deployment of this new technology moves ahead, we continue to 
use explosives trace detection units to accomplish screening of carry-
on items for explosives residue. At passenger checkpoints, these 
devices are used to analyze residue from sample swabs of carry-on bags 
during random screening and selectee screening, as well as for 
resolution of suspect bags, shoes, and electronic items identified by 
an X-ray operator. Explosives trace detection units--nearly 1,300 
devices--are used at passenger checkpoints in every airport that TSA 
serves.

Applying Screening Resources to the Greatest Risk
    As part of our continuing effort to review TSA practices in light 
of changing threats and the array of security measures now in place, we 
have also re-assessed the list of items that passengers are prohibited 
from taking with them onboard a plane.
    As you know, an image of every carry-on bag is evaluated by a TSA 
Security Officer, who is responsible for identifying any items on the 
prohibited-items list. If a prohibited item is suspected, the bag must 
be searched by hand. In the last two quarters of Fiscal Year 2005, TSA 
security officers found almost 9.4 million prohibited items in carry-on 
bags.
    The reality is, we are opening a lot of bags to take away objects 
that do not pose a great risk. We found that a disproportionate amount 
of our resources go to bag searches directed at objects that do not 
pose a real threat of taking control of an aircraft.
    Although we understand that some passengers and crew members would 
prefer a cabin environment in which no potential weapons exist, it is 
clear that goal is impossible to achieve. Pens, keys, belts and even 
bare hands can be used as weapons. The list of items that are now 
permitted on planes that could be turned into weapons is almost 
limitless, but we judge their threat to taking control of an aircraft 
as extremely limited. Similarly, our judgment is that removing small 
tools and small scissors from the prohibited-items list does not 
measurably add to the vulnerability of our aviation system.
    By carefully tracking the types of items that trigger secondary bag 
searches, we determined that small scissors and tools account for 
almost one-fourth of the prohibited items found in passenger carry-on 
bags. During the third and fourth quarters of Fiscal Year 2005, an 
estimated 1.7 million scissors were found at screening checkpoints. 
With these high numbers of scissors it is clear that TSOs are spending 
a very large amount of their time and attention focused on finding 
small scissors. In addition, TSOs found almost 500,000 tools in the 
third and fourth quarters of Fiscal Year 2005. Small screwdrivers, 
wrenches, and pliers made up a large majority of these tools.
    It is these items--scissors with blades less than 4 inches long and 
tools like screwdrivers, wrenches, and pliers that are less than 7 
inches long--that we will remove from the prohibited-items list on 
December 22. Tools with cutting edges, bludgeons, crowbars, hammers and 
saws will continue to be prohibited, along with any tool that is more 
than 7 inches in length. I want to emphasize that ice picks or box 
cutters, and knives of any kind remain on the prohibited-items list and 
are not allowed past the checkpoint.
    Based on our research and analysis, I am convinced that the time 
now spent searching passengers' bags for small scissors and tools does 
not add to our security. These are not the tools of the terrorists. We 
must focus our attention on the far more dangerous threat of 
explosives.

Improving Security by Eliminating Predictability
    The third set of changes we are implementing involve the protocols 
we use at screening checkpoints and other areas of the airports.
    Our goal is to establish flexible protocols based on risk, so that 
terrorists cannot use the predictability of our security measures to 
their advantage when planning an attack. In the past, security measures 
at every airport were much the same. Whether you were a frequent flyer 
or a potential terrorist, you knew what to expect at the airport. With 
the changes we are implementing, that predictability will be gone.
    Of course, the basics will not change: every passenger will still 
walk through a metal detector; and carry-on bags will be screened for 
weapons and explosives using X-ray equipment operated by TSOs. Suspect 
items will be referred for explosives screening using Explosives Trace 
Detection technology. All checked bags will continue to be screened for 
explosives using automated technology. But we will test and implement 
additional unpredictable screening techniques and procedures that will 
be easy for passengers to navigate, but difficult for terrorists to 
manipulate.
    As I noted earlier, passengers may see more canine explosives 
detection teams circulating through the ticket counter and screening 
checkpoint areas. With our new protocols, some passengers may be 
randomly selected at the checkpoint, rather than the ticket counter, to 
undergo additional screening or have their shoes or carry-on bags 
tested for explosive materials.
    In addition to these random screening techniques, those passengers 
who are subject to additional screening may notice a change in our pat-
down procedure. In the past, TSA procedures called for a pat-down of 
the entire back and the front of the torso around the abdomen. In order 
to improve our ability to detect non-metal weapons and explosive 
devices that may be carried on the body, we will be extending our pat-
down search to include the arms and the legs.
    As with current procedures, only female security officers will 
conduct pat-downs of female passengers, and only male security officers 
will conduct pat-downs of male passengers. Security officers will 
continue the practice of communicating exactly what to expect before 
each step of the search procedure. Additionally, passengers may 
continue to request that additional screening be conducted in private.
    We will pilot other activities as we move forward. Some will be 
visible, such as having one of our TSOs with special document 
verification training or equipment assist in checking passenger 
credentials. Some will not be visible.
    Again, the prohibited-items list and screening protocol changes I 
have outlined will go into effect on Thursday, December 22. All of the 
changes--in our explosives detection capability, the prohibited-items 
list, and TSA screening protocols--are important to maintaining the 
effectiveness of our security process. We must be able to adapt quickly 
to changes in terrorist tactics, deploy resources effectively based on 
risk, and use unpredictability as a means to disrupt terrorist plots.
    Finally, I want to emphasize that we continue to appreciate the 
help of industry employees, passengers, and local law enforcement 
officers in reporting suspicious behavior and suspicious incidents.
    The traveling public helped to make the Thanksgiving travel weekend 
one of the smoothest in recent years. This was truly a team effort. The 
airports, airlines, law enforcement, and TSA worked closely together to 
manage a tremendous volume of passengers. And passengers contributed by 
preparing in advance with their travel plans and did a great job of 
helping each other by minimizing unnecessary alarms at the checkpoints. 
All of this contributed to short wait times and strengthened the 
system's overall security. Our continued security depends upon these 
important partnerships, and we hope that by giving the public advance 
notice of the coming changes, Americans will all have a similarly 
smooth travel experience during the coming holiday season.
    Mr. Chairman, there is, unfortunately, no prohibited-items list for 
terrorists conceiving an attack on the United States. Terrorists have 
at their disposal an almost limitless array of items to use in an 
attack on the world's most open and wide-ranging transportation system. 
We will never be able to create a perfectly sterile environment on 
airplanes or other modes of passenger transportation. That is why we 
rely on a multi-layered approach to security. With our partners in the 
intelligence community, law enforcement, government, and industry, TSA 
is committed to protecting the freedoms, privacy, prosperity and 
mobility that we, as Americans, all hold dear.
    Thank you again for this important opportunity to report to you on 
our planned security changes, and I will be happy to respond to the 
Committee's questions.

    The Chairman. Thank you very much.
    It does seem that you're saying that passengers must accept 
an increased risk. Is that what you're really saying?
    Mr. Hawley. No. I think passengers will have a far-reduced 
risk, considering that the risk of explosives on an aircraft is 
a catastrophic risk, and that our ability to reliably detect 
and prevent explosive devices, or components of explosive 
devices, for getting on airplanes is measurably enhanced by 
focusing our efforts on the training, on better screening, and 
on more followthrough with--more examinations using our 
advanced technology--specifically, the trace detectors.
    The Chairman. I find it difficult to follow some of the 
reasoning, Mr. Secretary. A pair of scissors in a knitting 
basket of a grandmother is one thing.
    Mr. Hawley. Yes.
    The Chairman. A pair of scissors in the pocket of a 19 or 
20-year-old obvious thug----
    Mr. Hawley. Yes.
    The Chairman.--is another thing. Now, what's your answer to 
that?
    Mr. Hawley. Well, the risk that a terrorist thug would take 
over an aircraft using any of those devices--as you know, 
scissors or belts or credit cards or--there is a limitless 
number of items that are perfectly legal to bring on, that can 
be a lethal weapon. And the fact that we're opening a quarter 
of all bags that we open, pulling out what are essentially not 
threats to the aircraft, is not a good use of resources, in our 
opinion.
    The Chairman. Well, why the 4-inch scissors?
    Mr. Hawley. Well----
    The Chairman. You know, I've seen scissors--matter of fact, 
I have a pair--you just pull them out, and you pull them apart, 
and then there are two knives.
    Mr. Hawley. Yes. The reason is that we wanted to--in order 
to be--to get the advantages we want, in terms of not opening 
excessive bags, the transportation security officer has to be 
able to see readily, on the screen, whether it is a prohibited 
item or not, and that the scissors and tools, at that length, 
are at the very bottom end of the spectrum, and they can 
reliably make the decision, prohibited or not, based on the--on 
the screen itself.
    The Chairman. I think the two of us fly more, and probably 
have flown more, than any Senators in history. Now, we go 
through a lot of lines. I've seen those screeners.
    Mr. Hawley. Yes.
    The Chairman. How is that screener going to tell the 
difference between a 4-inch set of scissors and one that's 4\1/
2\, or 4\3/4\----
    Mr. Hawley. Yes.
    The Chairman.--or 5 inches?
    Mr. Hawley. Well, most--we've done the analysis, and 
virtually all the scissors are right around the 4 inches or 
less. And we took it out and did focus groups with screeners to 
establish whether or not that was the case. And it turns out it 
is the case.
    The Chairman. Well, have you left it to the discretion of 
the screeners who are looking at that screen to search a bag?
    Mr. Hawley. Yes.
    The Chairman. If they see something, in view of the person 
they're looking at--people say we--that there shouldn't be 
this--what do they call it?
    Mr. Hawley. Profiling, right.
    The Chairman. Yes.
    Mr. Hawley. Yes.
    The Chairman. Profiling.
    Mr. Hawley. Right.
    The Chairman. But we all profile as we go through life. 
Now, suppose one of them sees a thug standing in front of them, 
and he's got one of these things in the bag. Is he supposed to 
search the bag?
    Mr. Hawley. Well, we'll pick up the thug part elsewhere, 
and then what we ask our screener to do, at that point, with 
the--with the X-ray screen is identify what's in the bag as to 
whether that represents a threat, according to the prohibited-
items list. And the risk of having too many things on that 
prohibited-items list is that it becomes a clutter in the mind 
of the screener, who is trying to determine where is the 
detonator. And what we--what we really want is to be able to 
identify the relatively small pieces, or the components, of a 
potential explosive device.
    The Chairman. Well, let me put it this way. I get on the 
plane, and I'm seated, and along comes the guy, and he's got an 
enormous toolkit. And he opens up the thing above my head, and 
shoves it in there. And he can barely lift it and put it in. 
He's also got a carry-on bag that he puts under the seat. Now, 
am I to feel, you know, assured that those things have been 
examined, or not?
    Mr. Hawley. They have been examined. And the fact of the 
matter is that somebody trying to hijack an aircraft with one 
of the--the tools or implements is, I view, a very small risk. 
We had a situation, as you may know, in--on the way to Hawaii, 
this last weekend, where an individual, using a belt as a 
weapon, approached the cockpit. And a flight attendant was able 
to grab hold of him from behind, and then four passengers from 
up front came and took the gentleman down until he was subdued 
for handcuffs. So, the--that's before even getting to the 
cockpit door.
    The Chairman. All right, we had previous discussions about 
this, and about some concept of finding a way to reduce the 
number of things that people search for.
    Mr. Hawley. Right.
    The Chairman. But in the backroom here, you've got a list 
of things that are permissible, and ones that are not. Are you 
going to train your people to use their own judgment and not 
follow some strict limit that, ``Oh, that's a pair of scissors, 
I don't need to look''?
    Mr. Hawley. We feel we need to give them a measure by which 
they're judged, and then we can test on it. And what we do is, 
we have images of what a prohibited item would look like, and 
we test them. So, we feel we do need to give them the specific 
guidance on what is, and what is not, allowed, but clearly one 
of the things we're moving toward is what you say, of using 
more judgment in the process, particularly as the individual 
goes through the checkpoint, and look at the totality of the 
individual, what the person's carrying, and what the individual 
has on--has in the bag.
    The Chairman. I've got to tell you, this commercial 
passenger would be much happier if you found some way to limit 
the carry-on bags and tell people they can only take one thing 
on that--inside that cabin, and that you put that through the 
screen, and then tell me that you've not found anything in it 
that looks like it's threatening, as compared to the person 
that's carrying it. What's wrong with that paradigm?
    Mr. Hawley. Well, we've looked at that, and one of the--one 
of the issues that we find is that a--an individual with two 
bags, one larger than the other, takes the second bag, puts it 
inside the first bag, and then it is one bag, but it only 
increases the clutter on the--on the screen for the official. 
And it really comes down to the risk-based priority of, Where 
should we--as the Federal Government, where should we be 
applying our resources, toward what end? And with all the other 
things in place, particularly the things in place for screening 
out terrorists before they get to the airport, the things that 
are in place ahead of that point, and actually on the aircraft 
itself, sharply limit the risk of a hijacking with one of these 
objects. And the explosives capability, though, we have to have 
zero tolerance on that, and it is--that is our highest priority 
right now.
    The Chairman. Well, I've got to tell you, as I said, a 
frequent flyer, and then some, I'd be happier if you locked 
those cargo things above my head. I'd be happier if you 
permitted passengers to only take one thing on. Now I see 
people with one wheel thing that's 6 feet long, another one 
that's 3 feet long, supposedly a briefcase, and you say they've 
gone through screening because of the automatic screener, 
right?
    Mr. Hawley. They've all been through the screening process. 
Had they checked them, they would be completely out of the way.
    The Chairman. Well, I've got to tell you, Mr. Secretary, 
I'm not happy with this.
    Senator Inouye?
    Senator Inouye. I get searched all the time; bodily 
searched, about one-third of the time. I don't mind that. I'm 
happy to go through that. And I'm also happy to note that the 
pilots and copilots go through the same process. And the flight 
attendants do the same. I gather that all personnel onboard 
aircraft are required to go through the screening process.
    Can you say the same for the personnel on the ground? 
Because I've been told that they don't have to go through that 
process.
    Mr. Hawley. Well, to--there are airport workers who are--
who work around the airport, on the tarmac and in the 
operations area, that have to go through a background check. 
And those that pass that hurdle are allowed to use--are issued 
a badge that entitles them to get onto the airport property 
without additional screening at a TSA checkpoint.
    Senator Inouye. They're the ones that handle our baggage?
    Mr. Hawley. Yes. And they are--we have recently increased 
the checking on that to check, virtually every day, the 
currency of that list to make sure that nothing has changed in 
our background information that would allow someone who is 
currently a badgeholder to continue to have access if a problem 
develops.
    Senator Inouye. So, once you pass the background check, and 
you get your tag, you're on the tarmac.
    Mr. Hawley. That's correct.
    Senator Inouye. Do you apply that to the regular screening 
process?
    Mr. Hawley. No, actually we have our--when our TSA 
officials come, they have to go through the screening, 
themselves. But the--it's the multilayer aspect that we take a 
very careful look at who's got the SIDA-badge access, and it's 
something that we--as I mentioned, we are constantly rerunning 
those lists, versus our information, to make sure that they 
are, in fact, up-to-the-minute.
    Senator Inouye. Do we maintain the same security procedure 
at ports?
    Mr. Hawley. For maritime? Well, it is a different 
construct, in that the aviation environment is the only one in 
which we have TSA-paid-for people doing the screening. The--as 
I understand, with the cruise lines, they do their own 
screening of passengers coming onboard.
    Senator Inouye. What was the reason for lowering the 
requirements, such as permitting scissors to get onboard?
    Mr. Hawley. It----
    Senator Inouye. Was it the----
    Mr. Hawley.--it was----
    Senator Inouye.--workload of the screeners?
    Mr. Hawley. Well, we first looked to see where we feel we 
might be vulnerable. We do not feel that we have vulnerability 
inside the aircraft cabin for taking over--for a hijacking. We 
do feel we have vulnerability in, and the opportunity to do a 
better job of, detecting explosives that could be brought 
onboard the passenger cabin, and that--as part of that, we 
looked at the things on the prohibited-items list and were 
comfortable that the objects mentioned here do not measurably 
increase risk in that regard. And the fact is that we're 
spending, for--you know, a quarter of the bags that are opened, 
are opened for those, and if they're not a major threat to take 
over the aircraft, we felt it was better to use that time--
reallocate that time toward training and better screening, 
versus explosives, rather than tying them up going through 
bags, rooting around looking for small scissors and tools. 
It's--it really is the embodiment of risk-based. If we say 
we're going to make decisions based on risk, this is an example 
of putting that to practice and actually making a hard call 
that says we are going to make a risk-based tradeoff. And I'm 
willing to take the responsibility to say it's more important, 
for the security of the aviation system, that we spend that 
Federal time looking for explosives, rather than rooting 
through bags for scissors and small tools.
    Senator Inouye. Will you get to the stage where certain 
passes may be given to certain people?
    Mr. Hawley. Yes. We've talked about the registered traveler 
program, and that that is a way of further defining the risk 
basis. And, say, for people who have gone through thorough 
background checks--passengers--that there are expedited ways 
that we'd be willing to consider to get them through. And, 
again, take the resources that we're now essentially not using 
very effectively to screen people who are no threat at all, and 
move those to ones we don't know. So, that is definitely where 
we're heading. And we've announced a program that--in January, 
we're going to hear from the industry what their proposals are, 
and we're working with them to see how we might change the 
screening process to recognize the lesser threat of those 
passengers.
    Senator Inouye. Are they able to manipulate the metal 
detector so that it might be high on you and low on him?
    Mr. Hawley. Yes. But not--but not so much as a toggle that 
you could--you can just quickly flip the switch. They are 
capable of being tuned to the level of sensitivity that you 
want.
    Senator Inouye. I ask this because there are times when I 
see passengers go zipping through, and there are times when 
almost 50 percent are stopped.
    Mr. Hawley. Today, they're tuned, essentially, to the same 
standard. And what we hope is that travelers with enough 
experience know to get rid of their metal before going through 
the metal detector, and that's really what we hope for. And 
that speeds things up for everybody. It's what happened over 
Thanksgiving. We had tremendous teamwork with the passengers, 
who came to the checkpoints prepared, and we did not have the 
lines that we've had in the past.
    Senator Inouye. Is there any special process for people 
with metallic objects in their body?
    Mr. Hawley. Yes. We have a very robust process of working 
with people with disabilities of all types, and it is--we--it's 
a success story, really, in terms of working with the makers of 
prosthetic devices, so that the TSA people actually go in the 
factory and see how they're designed and made, and make 
suggestions, and understand how--all of the details, including 
assistive animals. It is--there's quite a bit of training on 
that.
    Senator Inouye. And how does a passenger get that 
treatment?
    Mr. Hawley. Just indicate that they have a special need, 
and then we take care of it. We do private screening, as 
appropriate.
    Senator Inouye. I ask this, because my wife has two knee 
replacements, I've got a shoulder replacement, and somehow the 
bells love to ring.
    Mr. Hawley. Yes, sir.
    Senator Inouye. Thank you very much.
    The Chairman. Mr. Hawley, it appears to me that the result 
of this is to make it easier for people to carry more things in 
those big, big bags that have wheels. And what we're doing is 
slowing down the amount of checked baggage, rather than the 
amount of hand-carried baggage on the plane. Now, it's been my 
judgment that the risk is in those bags, it's not in where 
you're waiting for baggage that's checked. Why don't we give an 
incentive to people not to carry stuff onboard planes?
    Mr. Hawley. That's, I think, an excellent idea, and it's 
something that we're exploring and interested to pilot. The 
question is how we can do that with--to come up with the right 
incentive so that it works for enough passengers to make it 
worthwhile. But----
    The Chairman. Some of those bags are occupying more space 
in a plane than I do.
    Mr. Hawley. Yes, sir.
    The Chairman. And they're heavier than I am--almost, 
anyway. I really think we've misjudged the problem, is what I'm 
telling you. The problem is more stuff going into the cabin. 
And I don't see that this is going to decrease it at all.
    Having said that, I remember, once, I was taking some 
instruction on self-defense. And the instructor showed me a 
sharpened credit card.
    Mr. Hawley. Yes, sir.
    The Chairman. And he told me that's the most lethal thing 
that you can think of, in terms of personal combat.
    Mr. Hawley. That's allowed on the aircraft today, and that 
is--you could use that as a lethal weapon.
    The Chairman. That is--you don't inspect people's wallets 
or pocketbooks for these, do you?
    Mr. Hawley. No, sir.
    The Chairman. Well, I think you need to do another risk 
assessment. I really do. I'm worried about the fact that people 
are going to look at this and say, you know, you can carry on 
any tool you want. It just says any tool. I could carry on a 
hammer, right----
    Mr. Hawley. No.
    The Chairman.--as long as it's not 7 inches in length?
    Mr. Hawley. No. We prohibit tools--drills, hammers, 
crowbars, anything that could be used to open the--you know, 
smash in the cockpit door, potentially, or used as a bludgeon. 
And the reason that we came to the 7 inches on the--on the 
small tools is that that doesn't allow enough so-called ``bat 
speed'' to provide a good bludgeoning----
    The Chairman. All right. I'm going----
    Mr. Hawley.--instrument.
    The Chairman.--to let up on, but you--I could take a pair 
of plyers----
    Mr. Hawley. Correct.
    The Chairman.--those really strong pair that are about 6 
inches long that open up wide enough to get around my neck, 
almost. I can take those onboard, can't I?
    Mr. Hawley. Under this proposal, absolutely. And our view 
is that that is not going to be an element of a successful 
terrorist attack against the United States, that we'd rather 
use that resource to prevent a bomb getting onboard.
    The Chairman. Well, it's--I thank you. And I think you're 
trying very hard, Mr. Hawley, but I do think we have to go back 
to the limitation. I'm going to think about legislation to 
limit what a person can carry on a commercial aircraft.
    Thank you very much.
    Mr. Hawley. Thank you.
    The Chairman. Mr. May? Chief Executive Officer, Air 
Transport Association of America. He has a face that looks like 
a good poker player.
    Mr. May. Once in a while, Mr. Chairman.
    The Chairman. Please.

        STATEMENT OF JAMES C. MAY, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, AIR TRANSPORT ASSOCIATION OF AMERICA, INC.

    Mr. May. Thank you. Mr. Chairman, Co-Chairman Inouye, it's 
a pleasure to appear before you. As always, I appreciate the 
opportunity to testify today on TSA's recently announced 
changes to the screening procedures and prohibited-items list.
    The significance of TSA's action, in our minds, lies not so 
much in the specific screening and prohibited-list changes 
announced, but in the fact that they resulted from a deliberate 
and careful risk analysis, as Secretary Hawley has talked 
about.
    According to him, TSA has done precisely what the 9/11 
Commission, Members of Congress, and the industry have urged 
TSA to do, which is make rational judgments about security 
measures, based on the best threat intelligence available, the 
state of security measures to protect vulnerabilities, 
potential consequences, and cost-effective use of valuable, but 
limited, resources.
    The 9/11 Commission stated in its final report, and I 
quote, ``The U.S. Government should identify and evaluate the 
transportation assets that need to be protected, set risk-based 
priorities for defending them, select the most practical and 
cost-effective ways of doing so, and then develop a plan, 
budget, and funding to implement that effort.''
    Assistant Secretary Hawley's December 2nd announcement 
makes it clear that that's exactly what TSA has done, and what 
they did in going through the decision to adjust the screening 
process.
    I think it's noteworthy that risk analysis and risk-based 
decisionmaking have also been embraced by Congress. TSA's use 
of risk analysis to determine appropriate modifications to the 
screening process is consistent with the responsibilities set 
out in the Homeland Security Act.
    More recently, the 2006 DHS Appropriations Act directed the 
Secretary to develop a threat-and-risk methodology to use when 
allocating discretionary grants to State and local programs.
    And, finally, TSA's announcement is also consistent with 
legislation recently introduced on the House side, the 
Transportation Security Administration Reorganization Act of 
2005. That bill would formalize the process TSA used, requiring 
a risk-management system to, ``dynamically assess and measure 
potential threats,'' and to then develop policies consistent 
with that system.
    The airline industry firmly supports the methodology for 
determining appropriate responses to terrorist threats. There 
are too many possible threats, too few Government and industry 
resources, to respond to every conceivable threat. The example 
of credit cards, the Chairman mentioned a few minutes ago, 
illustrates this policy well. Attempting to do so would simply 
diminish our ability to defend against the most serious 
threats.
    As we have testified, on previous occasions, a deliberate, 
methodical approach to security that analyzes the spectrum of 
threats, likelihood of success of attacks, and their 
consequences, is critical to effectively defending aviation.
    Another 9/11 Commission recommendation is to give, 
``priority attention to improving the ability of screening 
checkpoints to detect explosives on passengers.'' The changes 
announced by Secretary Hawley respond to that recommendation. 
They respond to intelligence gathered regarding threats to 
aviation, and they are consistent with security measures put in 
place to protect against another 9/11-type attack. Those 
measures--we already talked about them today--include hardened 
cockpit doors, the presence of Federal air marshals, armed 
pilots, under the FFDO program, enhanced crew security 
training, available self-defense training for crew members, and 
a new response to inflight security situations, which is to get 
the plane on the ground immediately. In short, aviation 
security, especially onboard security, is very much improved 
since 9/11, as the recent incident in Miami, sadly, 
illustrated. In light of these improvements, TSA has acted 
responsibly to focus attention on the next threat, rather than 
on the last threat.
    Secretary Chertoff recently testified that our national-
security strategy must promote freedom, prosperity, mobility, 
and individual privacy. The measures needed to achieve these 
goals have a significant economic and operational impact on the 
U.S. airline industry, and there's much work to be done to 
reduce that impact.
    Let me give this Committee three recommendations in areas 
needing improvement.
    First, consolidate U.S. Government passenger data-
collection requirements. Several agencies--Customs, Border 
Patrol, Center for Disease Control, and TSA--currently have, or 
are proposing to implement, overlapping passenger data-
collection requirements. What we need is agreement on a single 
governmentwide standard for passenger data, collected in a 
single collection point, to reduce the duplication and 
inconsistent technical requirements.
    Second, establish one government agency to be responsible 
for resolving passenger data-privacy issues that arise with 
foreign governments.
    And, third, clean up the so-called watch lists, and get the 
Secure Flight Program up and running. We have long said that 
aviation security should focus on people, not on things. And 
the first step to improve that capability is to get Secure 
Flight off the ground.
    In conclusion, Mr. Chairman, Congress established TSA to 
secure all modes of transportation against terrorist threats. 
It's given TSA both the tools to analyze those threats and the 
authority to implement appropriate security measures. Let them 
do their job.
    Thank you.
    [The prepared statement of Mr. May follows:]

   Prepared Statement of James C. May, President and Chief Executive 
          Officer, Air Transport Association of America, Inc.

    Thank you Mr. Chairman, Senator Inouye and Members of the 
Committee. I am Jim May, President and CEO of the Air Transport 
Association of America, Inc. On behalf of our members, I appreciate the 
opportunity to testify today on TSA's recently announced changes to its 
screening procedures and prohibited-items list.
Driving Priorities By Risk Analysis
    The significance of TSA's action lies not so much in the specific 
screening and prohibited list changes announced, but in the fact that 
they result from a deliberate and careful risk analysis. According to 
Assistant Secretary Hawley, TSA has done precisely what the 9/11 
Commission, members of Congress and industry have urged TSA to do: make 
rational judgments about security measures based on the best threat 
intelligence available, the state of security measures to protect 
vulnerabilities, potential consequences and cost-effective use of 
valuable--and limited--resources.
    The 9/11 Commission stated in its Final Report: ``The U.S. 
Government should identify and evaluate the transportation assets that 
need to be protected, set risk-based priorities for defending them, 
select the most practical and cost-effective ways of doing so, and then 
develop a plan, budget, and funding to implement the effort.'' 
Assistant Secretary Hawley's December 2nd announcement makes it clear 
that this is precisely the exercise TSA went through in deciding to 
adjust the screening process. Indeed, Secretary Chertoff identified 
this process as a core principle when he testified before this 
Committee in July of this year.
    It is noteworthy that risk analysis and risk-based decision-making 
has been embraced by Congress. TSA's use of risk analysis to determine 
appropriate modifications to the screening process is consistent with 
the responsibilities of the DHS Under Secretary for Information 
Analysis and Infrastructure Protection, set out in the Homeland 
Security Act, to analyze intelligence data and conduct terrorist attack 
risk assessments, including the probability of success and the efficacy 
of countermeasures. More recently, the 2006 DHS Appropriations Act 
directed the Secretary to develop a threat and risk methodology to use 
when allocating discretionary grants to state and local programs. TSA's 
announcement is also consistent with the recently introduced 
Transportation Security Administration Reorganization Act of 2005. That 
bill would formalize the process TSA used, requiring a risk management 
system ``to dynamically assess and measure potential threats,'' and 
then develop policies consistent with that system.
    The airline industry firmly supports this methodology for 
determining appropriate responses to terrorist threats. There are too 
many possible threats, and too few government and industry resources, 
to respond to every conceivable threat. Attempting to do so would 
simply diminish our ability to defend against the most serious threats. 
As we have testified on previous occasions, a deliberate, methodical 
approach to security that analyzes the spectrum of threats, likelihood 
of success of attacks and their consequences, is critical to 
effectively defending aviation.
    Another 9/11 Commission recommendation is to give ``priority 
attention to improving the ability of screening checkpoints to detect 
explosives on passengers.'' The changes announced by Assistant 
Secretary Hawley respond to this recommendation, we are told they 
respond to intelligence gathered regarding threats to aviation, and 
they account for the security measures put in place to protect against 
another 9/11 type attack. Those measures include hardened cockpit 
doors, the presence of Federal Air Marshalls, armed pilots under the 
Federal Flight Deck Officer program, enhanced crew security training, 
available self-defense training for crewmembers, and a new response to 
in-flight security situations--get the plane on the ground immediately. 
In short, aviation security--especially onboard security--is much 
improved since 9/11, as the recent incident in Miami sadly illustrated. 
In light of these improvements, TSA has acted responsibly to focus 
attention on the next threat rather than the last one.

Further Improvements
    Secretary Chertoff also has testified that our national security 
strategy must promote freedom, prosperity, mobility and individual 
privacy. The measures needed to achieve these goals have a significant 
economic and operational impact on the U.S. airline industry, and there 
is much work to be done to reduce that impact. I share here three 
recommendations in areas needing improvement:

  <bullet> Consolidate U.S. Government passenger data collection 
        requirements. Several agencies--Customs and Border Protection, 
        Centers for Disease Control, and TSA--currently have, or are 
        proposing to implement, overlapping passenger data collection 
        requirements. What we need is agreement on a single, 
        government-wide standard for airline passenger data collected 
        and a single collection point to reduce duplication and 
        inconsistent technical requirements.

  <bullet> Establish one U.S. Government agency to be responsible for 
        resolving passenger data privacy issues that arise with foreign 
        governments. Failure to resolve these serious differences puts 
        U.S. airlines in the untenable situation of complying with U.S. 
        security-related information demands while running the risk of 
        violating the data protection laws of foreign countries.

  <bullet> Clean up the so-called ``watch lists'' and get the Secure 
        Flight program up and running. We have long said that aviation 
        security should focus on people, not things. The first step to 
        improve this capability is to get the Secure Flight program off 
        the ground. DHS needs to work collaboratively with industry to 
        develop an integrated prescreening system for both domestic and 
        international passengers.

Conclusion
    Congress established TSA to secure all modes of transportation 
against terrorist threats; it has given TSA both the tools to analyze 
those threats and the authority to implement appropriate security 
measures. It is time to move beyond determining security measures based 
on personal opinion and popular belief, and let TSA use these tools to 
do its job.

    The Chairman. I may be being a little unfair, but your--the 
industry seems to be saying, ``We'd like to have a thorough 
search, and the real threats are explosives.'' I think that's 
true. That's really primarily on checked baggage, isn't it?
    Mr. May. Yes, sir, it--what we're focusing on today 
certainly is the checked baggage--is--it's--I'm sorry, the 
carry-on baggage component, because the decisions that TSA made 
affect the prohibited-items list for checked--for carry-on 
baggage, excuse me. So, what we're talking about is a threat 
level that's being responded to, quite frankly, Mr. Chairman, 
for explosives carried onboard aircraft. And that is the threat 
that I think TSA is addressing. That is not to minimize the 
threat from explosives for other forms--cargo, for example, or 
checked baggage--but I think the response, specifically, that 
TSA was addressing--and I know a lot of the very--most recent 
training that the TSA screening officials have gone through 
involves explosives that might be carried onboard a plane in 
carry-on baggage.
    The Chairman. Well, it's not so long ago when you got on an 
airplane, there was a little thing right beside the door, and 
it said, ``What you carry on must fit into this,'' right?
    Mr. May. That is correct. And they still exist in virtually 
every check-in counter in the country. I've had my bags put 
through them as recently as a week ago.
    The Chairman. Well, they don't put those things on wheels 
in there now. They wheel behind passengers, and they're full, 
full suitcases. They're bigger than anything I've ever carried 
onboard, but I've seen them.
    Mr. May. We share your concerns, Mr. Chairman. It's one of 
the points we made in trying to get passengers ready for 
Thanksgiving holiday travel, for example, because so many 
people try and take their entire lives with them onboard the 
airplane, and it creates all sorts of difficulties. In 
particular, it creates a major headache and hassle for the 
flight attendants that are trying to accommodate all this 
baggage.
    The Chairman. Well, why don't you support the idea, then, 
that we limit people to one bag, getting on a plane, and of a 
certain size.
    Mr. May. Well----
    The Chairman. And then it would be easy--very easy to 
inspect it.
    Mr. May. I think--I think one of the issues is whether or 
not TSA can accurately inspect, and quickly inspect, the 
baggage that's currently being taken on. It's my understanding 
that they're down to about--under 2 minutes per person, even 
with two bags going through the security process. I'm all in 
favor of not taking your entire life with you on an airplane. 
By the same token, I fully appreciate a tremendous number of 
business travelers that like to be able to carry on a single 
bag, well-packed, plus a laptop computer, a purse, in the case 
of the ladies, et cetera. That is the current rule. And I think 
it's--I think it's perfectly appropriate.
    The Chairman. Well, it----
    Mr. May. It's when they break that rule, and try and take 
on oversized bags and extra bags that I think we need to have 
stronger enforcement.
    The Chairman. Well, you said that you think we should focus 
on people, right?
    Mr. May. We should focus on individuals, not on things. 
That is a longstanding mantra.
    The Chairman. Explosives are things, aren't they?
    Mr. May. They are. And that is part of the equation. 
Behavior is also a part of the equation. I think we need to 
have a very broad-based screening process that involves 
behavior, that involves things, that involves people. What 
we're worried about when we focus on things--and, specifically, 
explosives--is that we focus on those things that could bring 
down, or jeopardize, an entire airplane, an entire group of 
passengers and crew, as opposed to things that, while posing a 
threat, are not likely to pose a threat to an actual hijacking.
    The Chairman. I want to ask you two questions, and then 
I'll finish.
    Mr. May. Yes, sir.
    The Chairman. One, this person that was subdued, for 
instance, as Mr. Hawley just said, on the plane going to 
Hawaii----
    Mr. May. On the Northwest flight?
    The Chairman. Yes.
    Mr. May. Right.
    The Chairman. Why should he ever again be allowed to get on 
a commercial airline?
    Mr. May. I can't answer that question from the Government's 
perspective. Mr. Hawley would have to answer that. But it seems 
to me that if there is a sufficient threat, based on prior 
behavior, that action could be taken.
    The Chairman. Second, you recommend consolidation of 
information. What ever happened to the picture watch list that 
we had, a photographic watch list? Is that still being used by 
your people?
    Mr. May. No, it is not.
    The Chairman. Thank you very much.
    Senator Inouye?
    Senator Inouye. Are you satisfied that the security process 
for the ground crew is sufficient, as compared to the flight 
crew?
    Mr. May. We are, Senator Inouye, satisfied, at this time. 
Those individual ground employees are run against the watch 
list on an almost daily basis. And I think that the process 
that we're using for them is appropriate.
    Senator Inouye. When the food truck comes in, do they 
search the contents?
    Mr. May. It's my understanding that they do. There is a--
we, as airlines, are responsible for catering-security, very 
specifically, and that is part of the protocol that we go 
through.
    Senator Inouye. And you're----
    Mr. May. There is a transportation-workers' program that we 
engage in with TSA. They're checked at the gate, and then 
monitored again, coming in.
    Senator Inouye. And you're satisfied that this new risk 
assessment is correct?
    Mr. May. Senator, we think that risk assessment and risk 
management are fundamental to the overall success of TSA and to 
airline security. We know that the threats are--continue to 
change. We know that TSA has to change according to the threats 
that are presented. We know that it was appropriate, 
immediately following 9/11, to come up with a list of 
prohibited items. We have to continue to manage that list. We 
know now, based on intelligence and other avenues of 
information, that explosives are probably the single-greatest 
threat, in terms of airplanes. We know we have to do things to 
address that. TSA is addressing the explosives. They are 
addressing it through training, they're addressing it through 
spending more time to carefully manage what's being carried 
aboard airplanes, they're addressing it through a widely 
increased use of canines. It's interesting that the lowest form 
of technology, in some respects, is the most effective, when it 
comes to determining explosives.
    So, I think that risk management is a tool, risk assessment 
are tools, that are critical to the success of TSA/DHS efforts 
across the board. It's not just us. It's the subways in New 
York. It's port security. It's everywhere. And we have to 
continue to change. We have to continue to not be predictable. 
We have to continue to adjust our response to different threats 
in different forms.
    Senator Inouye. You mentioned economy as one of the 
considerations in determining risk assessment.
    Mr. May. Yes, sir.
    Senator Inouye. Are you suggesting that the delay caused by 
the process--inspection process, security process--has cost the 
industry money?
    Mr. May. I don't think there's any question, Senator. We've 
long talked about the so-called ``hassle factor'' involved in 
airport security, and we are well aware that, on short-haul 
flights in particular, a number of individuals prefer to drive, 
as opposed to fly, because it's a--it's less bothersome to 
them, because of the security. So, we work with TSA on a 
regular basis to assure that, while we maintain the level of 
security aboard the airplane, that we also improve the 
efficiency of TSA. And I think the Thanksgiving example is the 
best one I can mention, because we moved a record number of 
people through that process without any significant delays, 
countrywide. And I think that's a testament to the work that's 
being done by TSA and by the carriers and their employees.
    Senator Inouye. I've been on many, many flights, like the 
Chairman, and I very, very seldom see an empty seat. In other 
words, most of us have become accustomed to waiting, an hour 
and a half, 2 hours. And I've stood at Dulles and elsewhere for 
over an hour, just going through the cordon. And apparently, it 
doesn't affect the income of the airlines.
    Mr. May. Oh, Senator, I think it very much affects the 
income of the airlines. It affects it----
    Senator Inouye. I've been on many short----
    Mr. May.--principally on short-haul people, who aren't----
    Senator Inouye.--short-haul flights to New York City and 
Chicago, and they all seem to be filled----
    Mr. May. We're----
    Senator Inouye.--unless I'm flying at the wrong time.
    Mr. May. We're at, probably, about 76 or 77 percent of 
capacity right now, as an industry, domestically. Our break-
even number is about 83 percent. We're full. But we tend to be 
full of inexpensive fares and very high-cost fuel.
    Senator Inouye. Well, I'd like to hear my favorite human 
beings, flight attendants. I spend just as much time with the 
flight attendant as I do with my wife. So----
    [Laughter.]
    The Chairman. As a matter of fact, some months, more, I 
think.
    One question.
    Mr. May. Yes, sir.
    The Chairman. Has the airline industry made recommendations 
to TSA for security?
    Mr. May. Yes, sir, we have. We have continuing 
conversations with TSA. Some of it is on a SSI basis, other is 
more open. I meet with Secretary Hawley on a regular basis. I 
find him to be very accommodating of our views and interested 
in what we have to say. He doesn't buy into everything we 
recommend to him, but I think we've got a good----
    The Chairman. That was----
    Mr. May.--working relationship.
    The Chairman.--my last question. What haven't they agreed 
with you on?
    Mr. May. Well, I think that, you know, we're--we've got an 
issue of how quickly they're going to adopt some of the 
recommendations we've got on Secure Flight--for example, how 
quickly we can get past--I made three recommendations today; 
they're not, any of them, new to TSA--how quickly we can get 
past the idea that we have different agencies of the Department 
of Homeland Security all working for the same boss, all trying 
to collect different forms of data from the carriers, all for 
the same essential purpose, which is to run it against watch 
lists. And so, we've made those recommendations. We'd like them 
to, sort of, expedite getting rid of the cross-purpose 
activity.
    The Chairman. Well, God willing, we're going to go home for 
Christmas. But, in any event, we've scheduled hearings on 
February 9th on Secure Flight, a registered-traveler concept, a 
screener workforce, baggage screening, and new technology. So, 
we're going to continue to pursue this to try and see if we can 
have some impact on coming together as a nation on what we 
need, in terms of airline security and, really, who should bear 
the burden. Should it be the people that are frequent flyers, 
or should it be the people who get onboard and are moving all 
of their belongings from one place to another?
    Mr. May. Your staff have already put us on notice for that 
date, Senator.
    The Chairman. Thank you very much. Thank you. Appreciate 
it, Mr.----
    Mr. May. Thank you, sir.
    Ms. Friend?

          STATEMENT OF PATRICIA FRIEND, INTERNATIONAL 
    PRESIDENT, ASSOCIATION OF FLIGHT ATTENDANTS-CWA, AFL-CIO

    Ms. Friend. Thank you, Chairman Stevens. Thank you for 
holding this hearing. Oh, it's not on. Thank you.
    Thank you for holding this hearing, and for allowing us to 
comment on the TSA's proposed changes to the prohibited-items 
list.
    Although I am the international president of the 
Association of Flight Attendants, I know that today I speak for 
all flight attendants, and I welcome the support today from my 
fellow flight-attendant representatives, the APFA, from 
American Airlines, and the Transport Workers Union, 
representing the Southwest flight attendants.
    We are the front-line safety and security personnel onboard 
every commercial passenger aircraft in this country--a front-
line safety and security personnel, I might add, who have still 
not received adequate or meaningful security training. We 
believe, unequivocally, that these proposed changes will 
further endanger the lives of all flight attendants and the 
passengers that we work so hard to keep safe and secure.
    I brought along some examples for you today of what would 
be allowed under the TSA's proposed changes. Now, I was 
questioned by security in this building about my purpose in 
bringing these items into this building. However, if the--under 
the TSA's proposal, anyone will be able to bring any or all of 
these items into our workplace without any justification.
    It's been more than 4 years since the terrible events of 
September 11th. On that day, 25 of our fellow flight attendants 
perished on those four deadly flights. Some of these 
individuals were the first victims to be killed by the 
terrorists. Since then, we have worked diligently as a key 
industry stakeholder to assure that all flight attendants and 
passengers have the best possible chance of survival for the 
next time they find themselves face to face with a terrorist, 
or even confronted by an abusive or unruly passenger.
    My written testimony to the Committee outlines in detail 
the concerns that we have with recent statements by TSA and 
Assistant Secretary Hawley. I ask that our written comments be 
accepted into the record.
    Let me be clear that we do not disagree with the TSA's 
decision to put additional resources into detection of 
explosives and potential suicide bombers. That threat exists, 
and it has always existed. But shifting resources should not be 
done at the expense of allowing items that could be used as 
deadly weapons back onboard the aircraft, items similar and 
larger than those already used as weapons on September 11th. In 
this case, we believe that TSA is proposing to take two steps 
backward for one step forward.
    The vast majority of the traveling public is already 
trained not to bring these and other items onboard with them. 
They know that if there's any doubt about whether or not an 
item is allowed, they should place it in their checked baggage 
and not attempt to bring it on the aircraft. Why should we 
create, again, confusion in their minds as to what is allowed 
and what is not? Such confusion will only result in longer 
lines at screening checkpoints, as individuals attempt to bring 
on all type of items that are still on the prohibited list, but 
they are items which they assumed were now allowed.
    If the concern of the TSA is to reduce the amount of time 
spent on screening bags, and to focus on detection of 
explosives, we believe that a better use of the TSA's authority 
would be to uniformly and strictly enforce current carry-on 
baggage limitations. We share the concerns of the Chairman on 
the need for enforcing these limitations. Strictly enforcing 
the carry-on bag limitations at screener checkpoints would cut 
down on the size and number of items that screeners must check, 
and would free up their time to focus on explosive detection.
    Further, we do not believe that allowing these currently 
prohibited items onboard the aircraft will, in fact, save any 
screener time. It is counterintuitive to accept that it takes 
more time to identify these prohibited items than it does to 
identify them and then evaluate their size in order to 
determine if they are allowable. Can the average person 
adequately judge with their eye if some scissors are 3\3/4\ 
inches or 4\1/4\ inches? It would seem to us that most 
screeners will need to stop the belt repeatedly to determine if 
these items are allowable.
    We believe it would be a mistake to once again allow 
currently prohibited items back onboard the aircraft. Quite 
frankly, why does anyone need to bring scissors or screwdrivers 
onboard, except, potentially, to cause harm or mischief? And it 
is not just flight attendants that see this as a mistake. Since 
the TSA's announcement, the Federal Air Marshals, members of 
the 9/11 families, pilots, and the general public have joined 
us in our outcry.
    The prohibited-items list was an important policy in making 
our aviation system secure, and it must remain in place. I 
encourage the Members of this Committee to cosponsor the Senate 
companion bill to H.R. 4452, which will be introduced this week 
by Senator Clinton. This bill would freeze the current list of 
prohibited items. Under this legislation, TSA would not be 
allowed to remove potentially dangerous items from the 
prohibited list, but they could add items in the future. We 
urge you to cosponsor this legislation and keep this vital and 
commonsense security measure in place.
    Thank you, again, for hearing us out and having this 
hearing. And I'm happy to answer any questions.
    [The prepared statement of Ms. Friend follows:]

    Prepared Statement of Patricia Friend, International President, 
             Association of Flight Attendants-CWA, AFL-CIO

    Mr. Chairman and Committee Members:
    Thank you for holding this hearing and allowing us to comment on 
the Transportation Security Administration's (TSA) proposed changes to 
the current prohibited-items list. We believe unequivocally that these 
proposed changes will further endanger the lives of all flight 
attendants and the passengers we work so hard to keep safe and secure. 
We remain perplexed why these items should be onboard the aircraft 
cabin and why the Federal Government will take a big step back in the 
post--September 11th efforts to make our aviation system the most 
secure in the world.
    It has been more than 4 years since the terrible events of 
September 11, 2001, when 25 of our fellow flight attendants perished on 
those four deadly flights. Some of these fine individuals, all proudly 
wearing the uniforms of their respective carriers, were the first 
victims to be killed by the ruthless tactics of terrorists. Since then 
the Association of Flight Attendants-CWA, AFL-CIO, which represents 46, 
000 flight attendants at 22 U.S. airlines, has worked diligently as a 
key industry stakeholder to assure that all flight attendants and 
passengers have the best possible chance for survival the next time 
they find themselves face to face with a terrorist. For this reason I 
will take this opportunity to set the record straight by examining the 
TSA ``Fact Sheet'' listed on the agency's official website as well as 
both the press release and Assistant Secretary Kip Hawley's prepared 
remarks at the National Press Club on December 2, 2005.
    As per the website Fact Sheet, ``TSA is updating the prohibited-
items list to more effectively confront current threats to aviation. 
Changing the prohibited-items list to allow certain high volume items 
that do not pose a threat enables TSOs [Transportation Security 
Officers formerly known as Screeners] to focus on identifying 
explosives.''
    FACT: In the 9/11 Commission Staff Monograph released September 12, 
2005, Former FAA Administrator Jane Garvey testified:

        ``On September 10, we were not a nation at war. On September 
        10, we were a nation bedeviled by delays, concerned about 
        congestion, and impatient to keep moving. And on September 10, 
        based on intelligence reporting, we saw explosive devices on 
        aircraft as the most dangerous threat.''

    Have we come so far that we find ourselves right back where we 
started from, facing the same regulatory culture of complacency and 
distraction, that today Assistant Secretary Hawley and TSA are thinking 
the same way that Administrator Garvey and the FAA were on September 
10, 2001?

  <bullet> Small Scissors Are Now Permitted

    Metal scissors with pointed tips and a cutting edge four inches or 
less, as measured from the fulcrum, are now allowed.

    FACT: On the four flights of 9/11, several individuals including 
flight attendants, pilots and passengers lost their lives to edged 
weapons, i.e. knives and box cutters with cutting edges that were less 
than four inches long. All of these items were taken on the plane 
legally by each of the terrorists, who used them to cause enough fear 
in all of the remaining pilots, flight attendants, and passengers, that 
control of each of the flights was lost. If these items are taken off 
the prohibited list, ``random checks'' of every would-be hijacker, be 
they trained terrorists or unruly passengers, will not save the lives 
of crewmembers or passengers 35,000 feet in the air.
    Experts on edged weapons and aviation self-defense training were 
presented by TSA on June 9, 10, and 11, 2003 and they demonstrated that 
``improvised edged weapons'' such as scissors can be used to stab or 
slice the throats of innocent flight attendants and passengers inside 
the cabin. Additionally, for this very reason, TSA's own Federal Air 
Marshals are opposed to these items being taken off the prohibited 
list. Even trained law enforcement officers would prefer not to fight 
against an edged weapon in the close quarters of a commercial aircraft.
    From Mr. Hawley's characterization of these items as ``low-threat'' 
during his press release of December 2, 2005, it is clear that he must 
be listening to the wrong people inside his organization.

  <bullet> Tools

    Screwdrivers, wrenches, pliers and other tools (except crowbars, 
drills, hammers, and saws) seven inches or less in length are now 
permitted 

    FACT: Like scissors, a screwdriver seven inches or less in length 
in the hands of a trained terrorist or an angry passenger can be 
improvised as a stabbing instrument similar to an ice pick. 
Furthermore, all of these tools can be used as torture devices 
potentially utilized on flight attendants and even passengers such as 
children in an effort to get the pilots to open the cockpit door and 
allow access by committed and ruthless hijackers. And if that weren't 
enough, all of these tools could be used inside the forward lavatories 
to attempt access to the cockpit through the bulkheads, which are not 
reinforced like the doors themselves.
    Since 9/11 significant advancements have been made in aviation 
security, including the installation of hardened cockpit doors, a 
substantial increase in the number of Federal Air Marshals, the 
establishment of the Federal Flight Deck Officer program, the 100 
percent screening of all passengers and baggage and other measures. 
These initiatives have raised the bar in aviation security and shifted 
the threat.
    FACT: Every passenger, including terrorists testing the system, 
knows that cockpit doors are opened for legitimate operations during 
many flights. Although these doors are a considerable improvement they, 
like every other layer of aviation security, are not 100 percent 
foolproof. There are no silver bullets. Thus, since neither Federal Air 
Marshals nor Federal Flight Deck Officers are on every flight, we must 
recognize that flight attendants and pilots are the only true 
professional first responders onboard every commercial airline flight.
    Please don't misunderstand me; this is not to minimize the 
importance of the Federal Air Marshal program or the voluntary Federal 
Flight Deck Officer program. On the contrary, all crewmembers must be 
trained in the appropriate manner in which to interact with both these 
programs. Unfortunately, it is clear that these programs cover only a 
very small percentage of domestic flights and an even smaller number of 
international flights. We know this and we must assume the terrorists 
do too.
    Again in his remarks at the National Press Club, Assistant 
Secretary Hawley stated ``These changes are consistent with and depend 
upon the teamwork that I just mentioned.'' He later reiterates ``Since 
9/11, TSA has implemented multiple layers of security to reduce the 
risk that terrorists could hijack and take control of an airplane. 
These measures include hardened cockpit doors, a greatly expanded 
Federal Air Marshall Program, the Federal Flight Deck Officer Program 
which permits trained pilots to carry firearms, provided additional 
security training to flight attendants, and increased screening of 
passengers and baggage. The public itself has added its own significant 
layer of security by its vigilance and the high likelihood that in the 
event of terrorist activity on an aircraft without an Air Marshal, 
passengers will take action.''
    FACT: Neither flight attendants nor pilots have received what 
aviation self-defense experts would consider appropriate and effective 
self-defense training at even a basic level let alone any advanced 
levels that would train them in techniques that will allow them to 
defend themselves against the threat that these improvised weapons 
represent.
    Furthermore, based on the research, analysis and design thus far 
completed by tactical, medical, legal, and psychological subject matter 
experts working in conjunction with instructional systems design 
specialists, such training must be mandatory for all commercial flight 
attendants and pilots. We strongly believe that flight attendants and 
pilots are capable of learning and applying appropriate basic self-
defense strategies, tactics, and techniques if the program is 
mandatory. However, they must all receive the same training, and work 
together as a team to immediately counter any apparent or potential 
threat.
    AFA believes strongly that teamwork like that suggested by Mr. 
Hawley needs to occur both in the airports and on the aircraft. For 
this reason the law requires crewmember training to include clear 
teaching on communication and coordination. Crew communication and 
coordination is considered absolutely critical, as it relates to the 
survival of all crewmembers and passengers and the overall control of 
the aircraft. Even with hardened cockpit doors, the Federal Flight Deck 
Officers program, and the Federal Air Marshal program, all crewmembers 
must be prepared to immediately respond during a terrorist attack. In 
these situations a lag in response time due to poor communications and 
coordination can prove just as fatal as it did on September 11, 2001. 
Even with the heroic efforts of those involved with Flight 93, this lag 
time proved fatal to all persons onboard the aircraft. To facilitate 
this, AFA strongly believes that a wireless communication system for 
flight attendants, air marshals and pilots is of the utmost urgency. As 
Operation Atlas demonstrated in a simulated hijacking on June 4th this 
year in Boston involving more than 50 emergency response law 
enforcement and aviation organizations, one of the first things the 
mock hijackers did was disable the lines on the aircraft interphones in 
order to prevent communication between the cabin and the cockpit. These 
are items that the TSA and the FAA continue to drag their feet on, 
despite repeated calls by Congress to study and provide for such a 
communication system.
    Lastly, regarding this point, Mr. Hawley's expectations that 
``passengers will take action'' if Federal Air Marshals are not 
onboard, is a very big and risky assumption on behalf of flight 
attendants and other passengers. Let us not pretend for a moment that 
untrained passengers can immediately overcome the fear and horror 
caused by seeing other individuals ruthlessly murdered before their 
very eyes. Overcoming a random actor or unruly passenger is one thing, 
but overcoming a well-planned and trained team of 5 or possibly even 12 
terrorists in the close confines of a commercial airliner is a 
dangerous assumption indeed. It is well-trained flight attendants 
leading the resistance against these terrorists that is the greatest 
hope of mobilizing able-bodied passengers to protect the aircraft from 
being taken over and minimizing the loss of life in the cabin. Giving 
the terrorists scissors and tools will only make this effort harder and 
more dangerous. Also, anecdotal evidence from our members suggests that 
the number of abusive passenger incidents continue to increase to 
levels experienced prior to 9/11, many times the exact passengers Mr. 
Hawley expects to help, are in some cases those that we have the most 
to fear in terms of being under the influence of alcohol and other 
controlled substances. These items in their hands could wreak further 
havoc in the aircraft.
    Assistant Secretary Hawley makes many other assertions as he 
attempts to justify these proposed changes. For instance, he says: 
``The most important part of this announcement is the fact that we have 
evaluated our risk environment throughout the transportation sector, 
and based on a broad analysis of threat, vulnerability and consequence, 
we are devoting more focus on higher threat areas, like explosives;'' 
and ``The changes reflect not only a new and evolving threat 
environment, but also our determination to make good decisions based on 
data and metrics.''
    FACT: DHS readily admits that history and current intelligence tell 
us that the terrorists will eventually once again choose the aviation 
industry as a method of attack. As before the 9/11 attacks, the threat 
of terrorists and unruly passengers using allowable items against 
flight attendants and passengers in an effort to gain access to the 
cockpit or to cause serious bodily harm to crewmembers and passengers 
in the cabin is still very real. In fact, although much has happened, 
many efforts have been made and a great deal of money has been spent, I 
must sadly inform you that it is our sincere and professional opinion, 
that as I sit here today in front of this distinguished Committee, that 
once a commercial aircraft is airborne, we are still not substantially 
better prepared to protect ourselves, our crew mates, or our 
passengers. Hence, our vulnerability is great and the consequences 
would be catastrophic to an aviation industry and a national economy 
still trying to fully recover from the events of September 11, 2001.
    Moreover, the 9-11 Commission Aviation and Transportation Staff 
Recommendations given to Congress September 1, 2004 made the following 
recommendation:

        RECOMMENDATION 2.2: In assessing risk among and within the 
        various modes, DHS should take into account not only the 
        threats to transportation as identified and assessed by the 
        intelligence community but also the system's vulnerabilities, 
        and the negative consequences of a successful attack.

    (Note: Pre 9/11 the FAA's security system was primarily a threat-
based system. Security measures were based mainly on the government's 
assessment of how terrorists might attack. This assessment was based 
generally on two factors: whether terrorists had used the tactic before 
and whether ``specific and credible'' evidence indicated that a 
particular kind of attack was in the offing. Because the United States 
can't always count on forewarning, risk assessment should factor in 
both our security vulnerabilities and the consequences of each type of 
possible attack, even in the absence of information that terrorists are 
planning to conduct a particular kind of attack.)
    Simply put, the threat and vulnerabilities are still there and the 
consequences are just too high to risk putting legal items back in the 
hands of terrorists, which may lead to the same results. What metrics 
does TSA possess that change this fact?
    Let me make clear that we do not disagree with the TSA's decision 
to put additional resources into detection of explosives and potential 
suicide bombers. What we disagree with is the decision to allow 
potentially deadly weapons in the hands of terrorists and disruptive 
passengers back onboard the aircraft. These items simply do not deserve 
to be in the cabin of the aircraft in the first place. In this case, 
the TSA is proposing to take two big steps backwards for one small step 
forward.
    The vast majority of the American public is already trained to not 
bring these and other items onboard with them. They know that if there 
is any doubt about whether or not an item is allowed, they simply place 
it in their checked baggage and do not bring it along with them. Why 
should we again create confusion in the minds of the traveling public 
as to what is allowed and what is not? Implementation of this policy 
will take us back to the months immediately following 9/11 when people 
were not clear on what was allowed onboard. Such confusion will only 
result in longer lines as individuals attempt to bring on items still 
on the prohibited-items list which they assumed had been removed.
    Further, if the concern of the TSA is to reduce the amount of time 
spent on screening bags and to focus on detection of explosives, we 
believe that a better use of the TSA's authority would be to uniformly 
and strictly enforce current carry-on baggage limitations. I know that 
carry-on bag limitations have been a concern for the distinguished 
Ranking Member of this Committee for a number of years primarily for 
safety reasons. We believe that 9/11 highlighted the further need for 
enforcement of strict limitations due to security concerns. Strictly 
enforcing the carry-on bag limitations at screener checkpoints would 
potentially cut down on the size and number of items that screeners 
must check and would free up their time to focus on explosive 
detection. As we have said before, it is easier to find the needle in 
the haystack when you have a much smaller haystack, not to mention a 
lot fewer of them. Uniform and strict enforcement of carry-on bag 
limitations is a win-win for everyone involved, as many U.S. airlines 
have long supported carry-on bag limitations for the reason it 
decreases the amount of time needed for boarding and deplaning of an 
aircraft.
    Also, we believe that allowing these currently prohibited items 
onboard the aircraft as long as they are under a certain size limit 
could lead to even further delay at the security checkpoints as 
screeners have to stop the belt and measure an item to determine if it 
is under the allowable size or is too large. Can someone adequately 
judge with their eye if some scissors are 3\3/4\ inches or 4\1/4\ 
inches? It would seem to us that most screeners would need to stop the 
belt repeatedly to determine if these items are allowable or not.
    I leave you with some excerpts from a chilling letter sent to 
former FAA Administrator Jane Garvey and 18 Members of Congress on 
April 12, 2001 after flight attendant Ginny Cavins went through an 
eerily similar set of circumstances.

        Dear Jane Garvey,

        I am writing you on the growing and very disturbing issue of 
        air rage. I am a flight attendant for Alaska Airlines and was 
        involved in a major air rage incident on March 16th 2000. Two 
        other flight attendants, the Captain, First Officer and myself 
        were victims of assault by a 250-lb. passenger named Peter 
        Bradley. A two and one half inch knife was pulled on another 
        passenger who tried to calm the assailant. I was violently 
        shoved out of the way of the cockpit door as I attempted to 
        calm the passenger and return him to his seat. With two easy 
        quick pulls, Peter Bradley broke into the cockpit . . . He 
        socked the Captain in the chest, struggled with the First 
        Officer who held him back with the crash ax and lunged for the 
        controls yelling he was going to kill us all! Seven passengers 
        came to our aid by pulling him out of the cockpit and bringing 
        him to the ground . . . 
        My first major concern is that stronger cockpit doors be 
        required . . . 
        My second major concern is restricting knives onboard all 
        aircraft and inside secured areas. Presently a four and one 
        half inch blade and under is allowed. Our assailant had a two 
        and one half inch blade and it could have killed any one of us 
        . . . 
        We need your help . . . You have the opportunity to make a 
        difference. It could be you or your loved one onboard a flight 
        next time an air rage or even a hijacking incident occurs . . . 


        Sincerely,
        Ginny Cavins

    Had Ginny's request been heeded perhaps 9/11 could have been 
avoided. Please don't ignore us this time. We still need your help. I 
strongly encourage you to cosponsor the Senate companion bill to H.R. 
4452, being introduced by Senator Clinton, which would freeze the 
current list of prohibited items into place. Under this legislation TSA 
would not be allowed to remove potentially dangerous items from the 
prohibited list but could add items in the future. Please take a stand 
in helping to make flight attendants and passengers as safe as 
possible--cosponsor this vital and common sense security measure in 
place.
    Thank you again for the opportunity to testify today.

    The Chairman. Well, thank you. As Senator Inouye said, we 
spend more time with you than you do with your husbands, as a 
matter of fact. A flight to Alaska or to Hawaii----
    Ms. Friend. Yes.
    The Chairman.--very long. And we have a great many friends 
in your organization.
    As far as cosponsoring that bill, I'll cosponsor it if 
she'll put in the bill a limitation of only one bag per 
passenger.
    Ms. Friend. We'll ask her to do that.
    The Chairman. The other thing is--I asked my staff to find 
out--we have, now, programs for air carriers. As a matter of 
fact, we've required, by law, that they offer basic training 
and self-defense training to flight crews. Of the 220,000, 
approximately, flight attendants and pilots, only 727 have, so 
far, been willing to take that training. Why?
    Ms. Friend. Well, first of all, it's not offered in enough 
locations. In fact, we have just requested, at the request of 
our three airlines--United, Hawaiian, and Aloha--that it be 
offered in Hawaii. It's never been offered to those flight 
attendants in Hawaii. And then, the--the primary reason is that 
it is not mandatory training, it is voluntary training. It must 
be done on the flight attendant's day off. And it is multiple 
days of training. And it is becoming increasingly difficult for 
flight attendants to string enough days off together to have 
time to take this training.
    The Chairman. Well, we'll look into that. That should not 
be. But, very clearly, I don't think you should be allowed to 
be a member of a flight crew unless you've taken this training.
    Ms. Friend. Well, we think it should be----
    The Chairman. It's time now that they understand they're a 
part of the passengers' defense force, as well as the 
attendants.
    Ms. Friend. We understand that very well, and we have been 
begging and pleading with the TSA, with our employer, to make 
this a part of all of the other training that is required, and 
that is provided us.
    The Chairman. That'll be the first hearing we'll hold after 
the February 9th hearing. We'll hold a hearing on----
    Ms. Friend. We----
    The Chairman.--the success or failure of the program to 
provide onboard employees of air carriers self-defense and 
basic self-defense and, really, basic training for what they 
should do in the event of such a----
    Ms. Friend. Exactly. We would welcome that.
    The Chairman. What has your--what has your organization 
recommended to TSA that they have not done?
    Ms. Friend. Well, we have a--the concern that the 
distinguished Co-Chairman has, that there are a number of 
people that have access, direct access to the aircraft, that 
are not required to go screen--to go through screening. Any 
lunch bags or any other items they bring with them to work are 
never screened. I find it very interesting that Secretary 
Hawley says they monitor their badges, their so-called SIDA 
badges, and that they've all had background checks. Well, so 
have we. We've all had background checks, and we all have SIDA 
badges, yet we also--we are required, every time we come to 
work or go into a different airport, to go through screening. 
And we are--we have always been disturbed that there are people 
with direct access to that aircraft, that are not actually 
going to get on that aircraft, that do--are not subject to the 
same screening.
    The Chairman. What type of people?
    Ms. Friend. People who service the aircraft, whether they 
be mechanics or catering personnel or people who service the 
lavatories or groom the cabin of the aircraft. There are all 
types of ground employees that help service that aircraft 
before it actually takes off.
    The Chairman. Thank you.
    Senator Inouye?
    Senator Inouye. Ms. Friend, you've brought up a good point. 
And why should anyone want to bring a screwdriver onboard the 
plane, or 4-inch scissors? I can understand if some person, man 
or woman, wants to bring on a knitting needle, because I've 
seen a lot of ladies doing knitting. But I have yet to see 
someone cut paperdolls on a plane----
    Ms. Friend. I absolutely agree.
    Senator Inouye.--or unscrew something.
    Ms. Friend. Right. We've had a lot of--I think there is a 
lot of misunderstanding about what is allowed, and is not 
allowed. And, in fact, the TSA has an extremely helpful 
document on their website with what is allowed. And things that 
people complain about not being allowed, in fact, are allowed, 
including knitting and crochet needles. They are not, today, 
prohibited. Neither are nail clippers or nail files prohibited. 
Scissors with a--with a blunt tip are allowed. So, as long as 
it--as it doesn't have this sharp tip--rather, a rounded tip--
that's allowed. I can't think of anything that anyone would 
want--would need to cut onboard an aircraft that couldn't be 
cut with a pair of blunt-tipped scissors, which are currently 
allowed.
    Senator Inouye. Where's the bill that you want us to 
cosponsor?
    Ms. Friend. It is H.R. 4452. It will be the companion to 
that. And Senator Clinton is planning to introduce it this 
week.
    Senator Inouye. Thank you very much.
    Ms. Friend. Thank you.
    The Chairman. I have one other question, and that is, what 
do you think about limiting the size of bags that come onboard?
    Ms. Friend. Well, I think it's an excellent idea. Those 
size--so-called ``sizers'' that you referred to are mostly 
receptacles for trash. Most people are not required to put 
their bag in it. There was a device in place at Dulles, for 
some time, that it actually was a carry-on-bag sizer that fit 
over the--over the front of the X-ray machine, so that it could 
be clear, if it didn't fit, then it didn't go on. Under 
pressure from the airlines, that was removed. I mean, a simple 
thing would be to put those carry-on-bag sizers back--fit them 
back on the carry-on-bag X-ray machines at all screening 
points, and it's not an argument about whether or not it's too 
big. If it doesn't fit into the screening machine, then it's 
too big, and it doesn't go.
    The Chairman. I'm afraid we're in a problem of finances. I 
think it costs more to the airlines and the airports to have 
more baggage handlers than it does to have people carry their 
own bags onboard the airplane.
    Ms. Friend. Well--and I must say that I believe that this 
industry, the people who manage this industry, have not done as 
good a job as they should for ensuring or--the reliability of 
the delivery system for checked baggage, and that encourages 
people, then, to try to carry it on. So, I think there is 
definitely a responsibility there to improve that reliability, 
and the perception of reliability and--before you--and then--
and then to strictly enforce it, as we've said.
    I'm reminded that Senator Inouye had a bill, in 1999, that 
called specifically for a limitation of 45 linear inches for 
any carry-on baggage.
    The Chairman. He's very generous.
    [Laughter.]
    The Chairman. Thank you very much.
    Ms. Friend. Thank you.
    The Chairman. The next hearing will be February 9th.
    Thank you very much.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Prepared Statement of Carie Lemack, Daughter of Judy Larocque, 
                  Co-Founder, Families of September 11

    On September 11, 2001, my mother, Judy Larocque, boarded American 
Airlines flight 11. She did so after going through a security screening 
checkpoint where her carry-on luggage and her person were checked for 
weapons. As do most commercial airline passengers, she believed that 
her fellow travelers were also screened for weapons and that she was 
safe from violence aboard the flight. She was wrong.
    Hijackers were permitted on her flight armed with small sharp 
blades. They used these blades to commandeer her plane, crashing it, 
with Mom and 91 others aboard, into the North Tower of the World Trade 
Center.
    Today this Committee is considering the Transportation Security 
Administration's new commercial aviation screening procedures. Kip 
Hawley, the Assistant Secretary of Transportation Security is proposing 
to allow sharp scissors (under four inches) and tools (under seven 
inches) back onto commercial aircraft.
    I write to ask the Committee to seriously consider the signal such 
a change sends to travelers and the American public at large. Are we 
ready to say that we can ignore what happened that terrible day and 
allow weapons back on planes? Are we prepared to relax aviation 
security at a time when the terrorist threat our Nation faces remains 
as high as ever? What evidence does TSA have that these weapons 
(currently banned and considered unsafe) will somehow become less 
dangerous on December 22nd, the date TSA proposes to allow them onto 
commercial aircraft?
    Proponents of the rule changes will argue that we need to focus our 
attention on explosive detection. They are correct. The use of 
explosives on an airplane would be catastrophic and must be prevented. 
Investment in explosive detection equipment and training is critical to 
aviation security.
    However, such investment should not come at the cost of 
conventional weapon screening. Aviation security is not a zero-sum 
game, where attention to one type of weapon has to come at the expense 
of attention to another.
    Proponents of the changes to the prohibited-items list will also 
say sharp blades are not a serious threat if the cockpit door is 
secure. This type of myopic thinking is what led to the relaxed 
security environment that allowed the 9/11 hijackers to carry out their 
attacks four years ago.
    The 9/11 Commission warned against a lack of imagination, and these 
rule changes are a sad example of why that warning was necessary. Any 
thoughtful person can imagine a multitude of ways a determined 
terrorist can use sharp scissors and tools to commandeer a plane, even 
with reinforced cockpit doors. Let's not test the ingenuity of 
terrorists. They have already proven their ``creativity'' at a terrible 
cost in lives and suffering.
    The American people rely on our elected leaders and appointed 
officials to do what's right to keep us safe. Some argue that ensuring 
citizens' safety is the primary duty of the government.
    Today it is up to this Committee to evaluate the witness testimony 
and do what is necessary to maintain safety in our skies. Will you heed 
the advice of those who testify about what is financially preferable in 
checkpoint screening? Or will you listen to those whose loved ones and 
co-workers faced the unthinkable fate brought about by the weapons you 
are considering allowing back on planes?
    As a daughter, and as a representative of families who know all too 
well the pain and suffering small, sharp blades can cause, I urge you 
to maintain the current commercial aviation prohibited-items list. 
Weapons, regardless of their size, have no place aboard America's 
commercial airliners.
    Thank you for the opportunity to submit testimony to the Committee.

                                  <all>

</pre></body></html>
